2311 Douglas Street
Omaha, Nebraska 68 !02-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-725
JONMICHAEL GUY,
Petitioner,
v.
ROBERT 0. LAMPERT, Director of the
Wyoming Department of Corrections, et al.,
Respondents.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.l(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 3928 words, excluding the parts that are exempted by Supreme Court Rule
33.l(d), as needed.

Subscribed and sworn to before me this 7th day of February, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

39381

